DOE/IG-0487




         AUDIT
        REPORT
                            THE RESTRUCTURE OF SECURITY SERVICES
                                            BY THE
                                 OAK RIDGE OPERATIONS OFFICE




                                           OCTOBER 2000




     U.S. DEPARTMENT OF ENERGY
    OFFICE OF INSPECTOR GENERAL
      OFFICE OF AUDIT SERVICES
                                               October 31, 2000


MEMORANDUM FOR THE SECRETARY

FROM:          Gregory H. Friedman (Signed)
               Inspector General

SUBJECT:       INFORMATION: Audit Report on "The Restructure of Security Services by the Oak Ridge
               Operations Office"


BACKGROUND

In Fiscal Year (FY) 1998, the Oak Ridge Operations Office (Operations Office) decided to restructure its
security services in an effort to reduce cost, gain more administrative control, and to capitalize on the
efficiencies associated with a centralized approach to security. This new approach was thoroughly vetted
with senior Department officials at Headquarters. To achieve its objectives, in FY 2000 the Operations
Office awarded a 3-year base term contract for security services valued at $218 million to Wackenhut
Services, Incorporated (Wackenhut).

In its analysis justifying the new approach, the Operations Office estimated that cost savings of
approximately $5 million a year would result from this new security services contract. Yet, in fact, security
costs increased from $78.4 million in FY 1999 to an estimated $92.1 million in FY 2000. In response to the
increase in security service cost, the Acting Deputy Administrator for Defense Programs requested that the
Office of Inspector General evaluate security costs at the Oak Ridge Reservation to determine why costs
increased after the Operations Office restructured security services under the Wackenhut contract. The
objective of the audit paralleled the request from Defense Programs.

RESULTS OF AUDIT

The audit disclosed that the Operations Office did not manage the restructuring effort in a way that would
have achieved its goals. Specifically, the Operations Office did not: perform an analysis of security service
staffing levels; determine the scope of work to be transferred to Wackenhut; or develop cost-reduction
measures or incentives to ensure efficient contractor performance. Also, despite its commitment to achieve
greater economies in security services, the Operations Office did not consider cost as a ranking factor in the
selection of the security services contractor. As a result, the Operations Office incurred at least $7.5 million
in avoidable security costs in FY 2000. Further, as described in our report, it did not meet its goal of
consolidating security services under a single contractor.
                                                    -2-

We support efforts to improve the effectiveness and efficiency of security services at Oak Ridge. However,
the Operations Office needs to improve its management of the security services if these objectives are to be
achieved.

MANAGEMENT REACTION

Management concurred with the finding and recommendations and agreed to initiate corrective actions.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science, and Environment
    Under Secretary for National Security/Administrator for Nuclear Security
    Director, Office of Security and Emergency Operations
    Chief of Defense Nuclear Security
THE RESTRUCTURE OF SECURITY SERVICES BY THE OAK RIDGE
OPERATIONS OFFICE


TABLE OF
CONTENTS



                  Overview

                  Introduction and Objective ..........................................................1

                  Conclusions and Observations.................................................. 2


                  Costs Increased Due to Restructuring

                  Details of Finding.......................................................................3

                  Recommendations and Comments ...........................................7


                  Appendix

                  Scope and Methodology.............................................................9
OVERVIEW

INTRODUCTION AND   In Fiscal Year (FY) 1999, the Oak Ridge Operations Office (Operations
OBJECTIVE          Office) obtained security services from Bechtel Jacobs Company, LLC
                   (Bechtel Jacobs) at the East Tennessee Technology Park (ETTP),
                   Lockheed Martin Energy Research Corporation (LMER) at the Oak
                   Ridge National Laboratory (ORNL), and Lockheed Martin Energy
                   Systems, Inc. (LMES) at the Y-12 Plant. LMES provided the
                   protective forces for the three sites and other Oak Ridge facilities. The
                   University of Tennessee-Battelle, LLC (UT-Battelle) began operating
                   ORNL in FY 2000. To gain more administrative and cost control over
                   security, and to capitalize on the efficiencies associated with a
                   centralized approach, the Operations Office decided to restructure its
                   security services in FY 1998. The Operations Office estimated that cost
                   savings of approximately $5 million a year would result from the
                   consolidation of security services, primarily from the reductions of
                   security services positions.

                   The Operations Office restructured its security services in FY 2000 by
                   awarding a time-and-material-award-fee contract to Wackenhut
                   Services, Incorporated (Wackenhut). The contract required Wackenhut
                   to perform multi-disciplinary services, including a protective force,
                   information security, and personnel security for the three sites and other
                   Oak Ridge facilities. The contract provided for security services from
                   January 10, 2000, through January 9, 2003, plus two 1-year options.
                   The 3-year base term of the contract was valued at $218 million.
                   Wackenhut's transition period began on October 1, 1999, and lasted
                   until January 9, 2000. The three operating contractors performed
                   security services during the transition period and Wackenhut began
                   providing the prime security services on January 10, 2000.

                   Despite the restructure, security costs increased from $78.4 million in
                   FY 1999 to an estimated $92.1 million in FY 2000. In response, in
                   May 2000, the Acting Deputy Administrator for Defense Programs
                   requested that the Office of Inspector General evaluate security costs at
                   the Oak Ridge Reservation and determine why costs increased after the
                   Operations Office restructured security services under the Wackenhut
                   contract. Accordingly, the objective of the audit was to determine why
                   security costs increased at the Oak Ridge Reservation after the
                   restructure.




Page 1                                                         Introduction and Objective
CONCLUSIONS AND   Security costs increased primarily because the restructure of security
OBSERVATIONS      services led to an increase in staffing levels, overtime, and award fee.
                  The restructuring did not produce the cost savings predicted by
                  management because the Operations Office did not manage the
                  restructure to achieve the goal of consolidation. Specifically, the
                  Operations Office did not perform an analysis of the staffing levels,
                  determine the scope of work to be transferred to Wackenhut, or develop
                  cost-reduction measures or incentives to ensure efficient contractor
                  performance. Also, the Operations Office did not consider cost as a
                  ranking factor in the selection of the security services contractor.
                  Finally, the Operations Office committed more funds to the Wackenhut
                  contract than planned by the Chief Financial Officer (CFO). As a result,
                  the Operations Office incurred at least $7.5 million in avoidable security
                  costs in FY 2000 and did not meet its goal of consolidating security
                  services under a single contractor.

                  The audit identified issues that management should consider when
                  preparing its yearend assurance memorandum on internal controls.




                                                               (Signed)
                                                        Office of Inspector General




Page 2                                                    Conclusions and Observations
COSTS INCREASED DUE TO RESTRUCTURING
Costs Increased       Security costs increased from $78.4 million in FY 1999 to an estimated
                      $92.1 million in FY 2000 primarily due to the restructure of security
                      services in FY 2000. The restructure of security services led to an
                      increase in staffing levels, overtime, and award fee. Transition costs
                      were also incurred as part of the restructure.

                                                 Security Positions

                      The restructure of security services in FY 2000 led to an overall
                      increase of 104 positions. Approximately 47 of the additional positions
                      were for management and administrative duties. An additional 27
                      security guards were added and the remaining 30 positions were added
                      for various security services such as personnel security and computer
                      security. Including Wackenhut's 617 positions, the total number of
                      security services positions totaled 744 after the restructure compared to
                      640 positions before the restructure.

                                                     Overtime

                      Overtime costs increased by $1,454,000 under the restructured security
                      services. Approximately $910,000 of the increase was for the payment
                      of overtime to Wackenhut's supervisors. LMES pays supervisors
                      overtime for hours in excess of 45 hours per week at the straight time
                      rate. However, Wackenhut pays supervisors overtime for hours in
                      excess of 40 hours per week at the time-and-a-half rate. Wackenhut
                      paid supervisors the premium rate for hours in excess of 40 hours per
                      week because it was allowed by the contract. Approximately $340,000
                      in overtime cost was attributed to time spent on providing security
                      services for new projects at each of the sites in FY 2000. The contract
                      was amended in August 2000 to allow for the additional time for the
                      projects.

                      The Office of Inspector General (OIG) performed an audit of security
                      overtime at the Operations Office in FY 2000. Report ER-B-00-02,
                      Audit of Security Overtime at the Oak Ridge Operations Office
                      (June 2000), concluded that the new contract did not provide
                      Wackenhut with incentives to reduce overtime or minimize costs. We
                      recommended that the Operations Office: 1) perform a comprehensive
                      cost analysis to determine the appropriate trade-off between increased
                      staffing levels and the use of overtime in the execution of the scope of
                      work authorized in the Wackenhut contract, 2) use the cost analysis as a
                      basis to establish measurable performance objectives with incentives,
                      and 3) ensure future security services contracts include incentives to
                      reduce overtime and minimize costs. The Operations Office was
                      responsive to the audit and began corrective actions to address the
                      recommendations in July 2000.
Page 3                                                                     Details of Finding
                                                    Award Fee

                       The award fee paid for security services increased by $2.9 million
                       under the restructured security services. The award fee paid to
                       LMES for security services in FY 1999 was $1.6 million, and the
                       award fee to be paid under the restructured security services in
                       FY 2000 is estimated at approximately $4.5 million. The FY 2000
                       award fee includes about $900,000 for LMES and $3.6 million for
                       Wackenhut. The award fee impact will be higher in FY 2001 since
                       Wackenhut will perform security services for the entire fiscal year.
                       Bechtel Jacobs and UT-Battelle were not included in the award fee
                       comparison because the award fee tied to their security services did
                       not change from FY 1999 to FY 2000.

                                                  Transition Costs

                       The restructure of security services in FY 2000 required a transition
                       period from October 1, 1999, through January 9, 2000. Wackenhut
                       did not perform security services during the transition time; however,
                       it incurred approximately $934,000 in transition costs for
                       management and administrative personnel and other start-up costs.
                       Almost $534,000 of the transition cost was for salaries for the
                       corporate and administrative staff. The remaining costs were for
                       items such as rent for buildings, travel and per diem, computer
                       expenses, and supplies.

Management did not     The restructuring did not produce the cost savings predicted by
Consolidate Security   management because the Operations Office did not manage the
Services               restructure to achieve the goal of consolidation. Specifically, the
                       Operations Office did not perform an analysis of the staffing levels,
                       determine the scope of work to be transferred to Wackenhut, or
                       develop cost-reduction measures or incentives to ensure efficient
                       contractor performance. Also, the Operations Office did not
                       consider cost as a ranking factor in the selection of the security
                       services contractor. Finally, the Operations Office committed more
                       funds to the Wackenhut contract than planned by the CFO.

                       The Operations Office did not perform an analysis of the staffing
                       levels; instead, it allowed LMES, UT-Battelle, and Bechtel Jacobs to
                       retain positions at each site after the restructure. A primary goal of
                       the restructure was to consolidate security services under one prime
                       contractor in order to reduce staff and gain more control of costs.


Page 4                                                                    Details of Finding
         The consolidation was intended to avoid inefficiencies associated
         with the infrastructures of the three operating contractors. Even
         though Wackenhut was considered to be the prime security services
         contractor, the three operating contractors maintained positions and
         continued to perform security tasks at their respective sites after the
         restructure. LMES retained 83 positions, UT-Battelle retained 23
         positions, and Bechtel Jacobs retained 21 positions after the
         restructure.

         In addition, the Operations Office allowed LMES, UT-Battelle, and
         Bechtel Jacobs to determine the scope of work to be transferred to
         Wackenhut. For example, LMES, UT-Battelle, and Bechtel Jacobs
         all retained physical security tasks after the restructure. Physical
         security involves the operation and maintenance of storage devices
         for protecting classified matter and monitoring tamper-indicating
         devices and alarms. Also, visitor control tasks were retained by all
         three site operating contractors. Additionally, LMES continued to
         maintain the badge readers for UT-Battelle and Bechtel Jacobs.

         Further, the scope of work transferred to Wackenhut varied for each
         site. For example, the contractor responsible for performing
         unclassified computer security and classified computer security was
         different at each site. UT-Battelle retained both tasks completely.
         Bechtel Jacobs retained the unclassified computer security task but
         allowed Wackenhut to perform the classified computer security task.
         LMES gave both computer security tasks to Wackenhut but retained
         oversight of the two tasks and therefore continued to incur costs
         associated with the tasks. An additional example is the task of
         operations security. This task involves identifying and assessing
         security vulnerabilities and was retained by UT-Battelle. LMES and
         Bechtel Jacobs released the task of operations security to Wackenhut
         but retained oversight positions for the task and therefore continued
         to incur costs.

         Also, the Operations Office did not develop cost-reduction measures
         or incentives to ensure efficient contractor performance. About 91
         percent of Wackenhut's invoiced costs through September 3, 2000,
         were for labor. However, the award fee for labor was calculated as a
         percentage of estimated labor costs, including overtime premium and
         overhead. Since overtime hours are paid at one-and-one-half times
         the regular hourly rate, the contract includes 50 percent more




Page 5                                                       Details of Finding
                          available award fee for overtime hours than for regular hours. The
                          practice of calculating fee based on total estimated costs, including
                          overtime premium, encourages contractors to propose large amounts
                          of overtime and other costs in order to obtain more award fee.

                          The Operations Office did not use cost as a ranking factor in
                          selecting the security services contractor. Wackenhut's response to
                          the request for proposal exceeded the Government estimate by
                          $34.5 million for the term of the contract, before consideration of the
                          award fee increase. In fact, all of the offerors responding to the
                          request for proposal exceeded the Government estimate by at least
                          $21.5 million. The Government estimate was considered reasonable
                          since it was based on FY 1998 costs incurred by previous contractors
                          for the same scope of work, adjusted for normal escalation.

                          Finally, more funds were committed to the Wackenhut contract than
                          were planned by the Operations Office's CFO. Based on FY 1999
                          security service costs, the Operations Office's Financial Service
                          Division established a funding limit for Wackenhut that covered the
                          period from January 10, 2000, through September 30, 2000.
                          However, a procurement request was authorized and approved by the
                          Operations Office ending the project period on August 1, 2000.
                          Consequently, Wackenhut managed their resources based on the
                          approved request. Once the Operations Office recognized that the
                          contract was not funded through the end of FY 2000 and that
                          Wackenhut had managed the contract based on the August 2000
                          date, the Operations Office had to approve an additional $3.6 million
                          to fund the contract from August 2, 2000, through September 30,
                          2000. This action contributed to the increase in cost.

Operations Office Could   The Operations Office could have avoided at least $7.5 million in
Have Avoided Security     security services costs in FY 2000, including $2.1 million for
Services Costs            unnecessary security positions, $2.5 million for avoidable overtime
                          premium, and $2.9 million for avoidable award fee. We determined
                          the increase in management and administrative positions and
                          retained oversight positions to be unnecessary because the goal of
                          the restructure was to consolidate security services and reduce costs,
                          not to add a layer of management. The increase in management and
                          administrative positions could have been offset by a reduction in the
                          positions retained by LMES, Bechtel Jacobs, and UT-Battelle.




Page 6                                                                       Details of Finding
                  We determined the increase in overtime and award fee to be
                  avoidable because the Operations Office did not require Wackenhut
                  to perform specific tasks or meet specific performance expectations
                  to earn the additional cost and fee.

                  We were unable to determine whether the number of security service
                  positions retained by LMES, UT-Battelle, and Bechtel Jacobs after
                  the restructure was appropriate; however, we estimated that the
                  Operations Office could have avoided $2.1 million for the cost of
                  47 additional management and administrative positions and
                  8 remaining oversight positions at LMES, UT-Battelle, and Bechtel
                  Jacobs. In addition, the $2.5 million increase in avoidable overtime
                  was estimated by comparing LMES' overtime in FY 1999 to
                  Wackenhut's overtime in FY 2000. Finally, the $2.9 million increase
                  in award fee was determined by comparing $1.6 million in award fee
                  paid to LMES for security services in FY 1999 to $4.5 million in
                  total award fee paid to Wackenhut and LMES for security services in
                  FY 2000.

RECOMMENDATIONS   We recommend that the Manager, Oak Ridge Operations Office:

                         1. Consolidate security services at the Oak Ridge
                            Reservation by evaluating staffing at all of the on-site
                            security service contractors and eliminating duplicative
                            and nonessential positions;

                         2. Define the scope of work to be performed by each of the
                            on-site security service contractors;

                         3. Develop cost-reduction measures or incentives and tie
                            them to the award fee determination to ensure efficient
                            contractor performance;

                         4. Use cost as a ranking factor in evaluating source
                            selections for time-and-materials contracts; and

                         5. Ensure that future procurement request authorizations do
                            not commit more funds to contracts than planned by the
                            Chief Financial Officer.




Page 7                                          Recommendations and Comments
MANAGEMENT REACTION   Management concurred with the finding and recommendations and
                      agreed to initiate corrective actions. Specifically, management
                      agreed to review the security services tasks performed by Wackenhut
                      and the on-site contractors. The review will focus on identifying
                      redundant and overlapping functions and activities. The Operations
                      Office also agreed to implement the remaining recommendations.

AUDITOR COMMENTS      Management's comments were responsive to the finding and
                      recommendations.




Page 8                                             Recommendations and Comments
Appendix

SCOPE         The audit was performed from June 5, 2000, to September 22, 2000, at
              the Operations Office, ETTP, ORNL, and the Y-12 Plant in Oak Ridge,
              Tennessee. The scope of the audit included costs of security services
              reported by LMES, UT-Battelle, Bechtel Jacobs, Wackenhut, and other
              Oak Ridge facilities for FYs 1999 and 2000. We did not evaluate the
              change in the quality of security as a result of the restructure.

              There are differences in scope and timing between our prior audit on
              overtime and this audit. The prior audit focused on a comparison of
              overtime hours paid at the time-and-a-half rate by LMES in calendar
              year 1999 and the overtime hours and associated award fee allowed
              under the 3-year base term of the Wackenhut contract. This audit
              focused on a comparison of actual costs incurred for all of the security
              services for the Oak Ridge Reservation in FYs 1999 and 2000.
              Management's response to the prior report on overtime will help to
              reduce the increase in overtime costs identified in this report.

METHODOLOGY   To accomplish the audit objective, we:

                     •   Analyzed and compared security services costs incurred
                         before and after the restructure;

                     •   Traced the costs of security services reported by LMES,
                         UT-Battelle, Bechtel Jacobs, and other Oak Ridge facilities
                         to supporting databases;

                     •   Determined and quantified the reasons for the increase in
                         security services costs;

                     •   Determined the scope of security services work performed
                         by contractors in FYs 1999 and 2000;

                     •   Evaluated the number of positions for security services in
                         FY 2000;

                     •   Reviewed the Department's contract for security services
                         with Wackenhut;

                     •   Examined procurement files; and

                     •   Held discussions with Department and contractor personnel
                         regarding security services for the Oak Ridge Reservation.



Page 9                                                      Scope and Methodology
          The audit was performed in accordance with generally accepted
          Government auditing standards for performance audits and included
          tests of internal controls and compliance with laws and regulations to
          the extent necessary to satisfy the audit objective. Accordingly, the
          assessment included reviews of costs incurred on security services at
          the Operations Office for FYs 1999 and 2000. Because our review was
          limited, it would not necessarily have disclosed all internal control
          deficiencies that may have existed at the time of our audit. To achieve
          the objective of the audit, we relied extensively on computer-processed
          data contained in the contractors' databases. We assessed the reliability
          of the data and found it to be adequate.

          As part of our review, we evaluated the Operations Office's
          expectations and performance measures for security services.
          Performance measures were established for each of the operating
          contractors in accordance with the Government Performance and
          Results Act of 1993. However, specific performance measures were
          not established to reduce the significant amount of overtime hours and
          costs under the Wackenhut contract.

          We discussed the audit finding and recommendations with officials
          from the Oak Ridge Operations Office on September 26, 2000.




Page 10                                                 Scope and Methodology
                                                                               IG Report No. :DOE/IG-0487

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
